           Inspection
              of
      SBIC Best Practices

           August 1994




       Report No. 94-08-002


   Office of Inspector General

U.S. Small Business Administration
                          U.S. Small Business Administration
                                 Washington, D.C. 20416

                         August 23, 1994


TO:          Erskine B. Bowles
             Administrator
THROUGH:     James F. Hoobler
             Inspector General;
FROM:       Tim Cross
           Assistant Inspector General
            for Inspection and Evaluation
SUBJECT: SBIC Best Practices Inspection

I am pleased to submit our inspection report on Small Business Investment
Company (SBIC) Best Practices.
The inspection team received excellent cooperation from Investment Division
staff and from senior officers of the SBICs it reviewed and their portfolio
firms. Bob Stillman and his staff provided us with helpful feedback on the
report in draft, and their formal comments on the final report are attached
in full as an appendix.
We believe the inspection findings provide an accurate compilation of the
characteristics that mark financially successful SBICs. We hope that this
will prove useful to the Investment Division in licensing future SBICs, as
well as to a broader audience seeking information about the program or
about "best practice" analyses.
If you have any questions or comments, we would be happy to discuss them
with you at your convenience.


Attachment
TABLE OF CONTENTS

EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE AND METHODOLOGY

FINDINGS
A. Practices Common to Profitable SBICs
1. Financially successful SBICs are headed by managers who
  are well-qualified in terms of their work experience and
  academic backgrounds
2. Profitable SBICs offer compensation packages and intangible
  benefits sufficient to attract and retain high-quality
  personnel.
3. Financially successful SBICs are adequately capitalized and
  follow good cash management principles.
4. Profitable SBIC investment strategies generally minimize
  risk.
5. Financially successful SBICs use a systematic approach to
  identify, evaluate, and structure deals.
6. Profitable SBICs closely monitor the financial health of
  their portfolio companies to protect their interests.
7. Successful SBICs add "value" to their portfolio companies,
  in conjunction with financing, thereby increasing the
  companies net worth.

B. Portfolio Companies Credited SBIC Financing with Having
  Significant Impact on Their Financial Growth
C. SBICs Failed Primarily Because of a Combination of
  Unqualified Management and Low Private Capital


TABLE

1            Changes in Employee Levels and Revenue at the 17 SBCs
             surveyed, After Receiving SBIC Financing
APPENDICES

A            Profiles of the Profitable SBICs Reviewed

B            Investment Division Comments

C            Contributors to This Report



                                            i
                 ABBREVIATIONS
CEO     chief executive officer
CFO     chief financial officer
CPA     certified public accountant
IPO     initial public offering
LBO     leveraged buy out
MBA     Master of Business Administration
OIG     Office of Inspector General
SBA     Small Business Administration
SBC     small business concern
SBIC    small business investment company
SSBIC   specialized small business investment company




                                    ii
                                          EXECUTIVE SUMMARY
                                         Purpose and Background
Over the last several years, concern has mounted over the large number of
Small Business Investment Companies (SBICs) that have failed. As of May 31,
1994, 199 active SBICs were in liquidation with outstanding
Agency -guaranteed debt of more than $531 million. While the
Small Business Administration (SBA) has identified a number of program
deficiencies and begun to address them through extensive changes in SBIC
regulations, relatively little attention has been given to examining the
effective operations of financially successful SBICs.
This inspection seeks to identify the "best practices" of a cross    -section
of successful SBICs for potentially broader application within the program.
The Office of Inspector General (OIG) initiated this study to assist SBA
management in identifying and encouraging good program operations.
Specifically, our objectives were to identify management practices common
to profitable SBICs that could be replicated in new or otherwise less
successful SBICs and to describe the impact such SBICs have had on the
financial well -being of their successful portfolio companies.
SBICs are private sector corporations and partnerships that are licensed by
SBA to provide equity capital and long -term debt, guaranteed by SBA, to
small business concerns (SBCs) in need of financing for development,
growth, and modernization. Since 1972, the Agency has also licensed
specialized SBICs (SSBICs) to provide such financing to SBCs owned by
socially or economically disadvantaged persons.
To qualify for a license, an applicant must meet capitalization
requirements ($2.5 million for SBICs and $1.5 million for SSBICs) and have
an SBA -approved manager to oversee the SBIC's' operations and to serve its
portfolio companies. For each dollar of private capital raised, the SBICs
may receive between two and three dollars of long   -term (up to 10 years)
leverage in the form of SBA -guaranteed debentures.
To identify SBIC best practices, we conducted case studies of nine
financially successful SBICs which varied according to size of assets,
investment orientation, concentration of industries in which they invest,
and whether or not they were bank -affiliated. We conducted in-depth
interviews with the presidents and key officers of the SBICs and reviewed
the SBICs' financial records, business plans, and other pertinent
information. We attempted to corroborate our observations by comparing the
characteristics of the financially successful SBICs with those of failed
SBICs. Finally, to estimate the profitable SBICs' impact on the financial
condition of their portfolio companies, we surveyed key officers of 17
SBCs. These
'Unless otherwise indicated, SBICs include regular SBICs and SSBICs.
companies, selected from the portfolios of all nine SBICs, were among those
identified by the SBIC presidents as their most financially successful
investments.
We recognize that conclusions based on case studies of seven regular SBICs
and two SSBICs are not representative of the universe of 280 active SBICs.
We believe, however, that our comprehensive review of a cross   -section of
successful SBICs may offer useful insights into practices that correlate


                                               iii
with SBIC profitability.
                                    Principal Findings
Not surprisingly, we confirmed that well -qualified, capable management, and
adequate capitalization are essential minimum requirements for an SBIC's
financial success. More specifically, we found seven “best practices" that
were common to the nine profitable SBICs we studied. Based on recently
published studies, the opinions of knowledgeable Agency officials, and our
file review of two SBICs in liquidation, these same practices are often
absent from failed SBICs.
1. Financially successful SBICs are headed by managers and officers who are well-
  qualified in terms of their work experience and academic backgrounds.The top
  managers have many years of experience in venture capital or related
  fields, including investment banking and corporate finance, and, along
  with most other senior officers, have advanced degrees in relevant
  fields. Three out of four officers in the nine SBICs we visited had
  graduate degrees, over 80 percent of which were Masters degrees in
  Business Administration (~I13As). The bulk of the MBAs were obtained from
  the nation's 25 top graduate schools of business. Finally, senior
  managers in the SBCs we surveyed solidly praised the SBIC managers for
  their integrity, professionalism, and intuitive business sense.
2. Profitable SBICs offer compensation packages and intangible benefits
  sufficient to attract and retain high-quality personnel.Most of the
  presidents of the financially   successful SBICs are compensated at levels
  equivalent to or higher than compensation received by their counterparts
  in private venture capital firms. Compensation includes salaries plus
  bonuses, often based on a percentage of the SBIC's annual pre    -Tax income
  (usually 20 percent). The two SBICs we examined in which the presidents
  received compensation that was lower than the industry average had not
  yet implemented their planned bonus systems.
3. Financially successful SBICs are adequately capitalized and follow good cash
   management principles. The amount of private capital held by the SBICs we
   studied ranged from $1 million to $120 million. To ensure that they had
   adequate cash on




2Based on the U.S. News & World Report   annual survey of graduate schools of business, March
21, 1994.


                                               iv
hand to meet current obligations, for example, the less-capitalized SBICs
made smaller investments to spread risk more effectively and invested only
in those SBCs that could be liquid within a two -to four year time frame.
4. Profitable SBIC investment strategies generally minimize risk.These
  strategies most often include investing in (1) industries in which the
  presidents and officers have personal experience and expertise, (2)
  later -stage companies with proven track records, (3) SBCs with an
  established market niche, and (4) SBCs whose management’s have a record
  of competence and integrity. Overall, their investment strategies tended
  to be conservative, with emphasis on keeping risk low.
5. Financially successful SBICs use a systematic approach to identify, evaluate,
  and structure deals. All the SBICs have extensive, reliable networks of
  contacts to identify investment opportunities. Before making an
  investment decision, deal officers carefully assess the prospective SBC's
  management team and conduct a thorough due diligence review to determine
  the company's financial health and prospects for growth. When structuring
  a deal, the SBICs try to match the type of financial instrument    -equity,
  debt, or some combination -with the needs of the SBC while ensuring an
  acceptable return for themselves.
6. Profitable SBICs closely monitor the financial health of their portfolio
  companies to protect their interests. Presidents and officers of the
  equity -oriented SBICs usually attend meetings of the SBCs' boards of
  directors and frequently occupy seats on the boards. They also regularly
  review the companies' financial and operational records. Debt    -oriented
  SBICs monitor their SBCs primarily by establishing good cash collection
  procedures and rigorously following up on late payments.
7. Successful SBICs add "value" to their portfolio companies, in conjunction with
  financing, thereby increasing the companies’ net worth. The SBICs actively
  assist their companies in recruiting key personnel, developing long     -range
  strategy, analyzing prospective mergers and acquisitions, and obtaining
  additional sources of capital from banks and other investors. The
  presidents and key officers of the profitable portfolio companies in our
  survey stressed the important role such assistance had in their
  companies' financial success.

Impact of SBICs on Portfolio Companies' Financial Well
                                                     -being
The nine SBICs had provided a total of $37.1 million in financing to the 17
SBCs surveyed, representing ova 21 percent of the SBCs' total financing.
Overall, as of May 1994, the number of employees at the SBCs had doubled
and the amount of their revenues had almost tripled since receiving the
SBICs' initial financings. It must be noted, however, that these gains
occurred in SBCs identified as among the most successful recipients of SBIC
financing, and that, in most cases, the gains cannot be directly attributed
to SBIC support because the SBCs also received other sources of financing.
In four cases in which the SBIC was the only source of financing, however,
the $6.6 million in SBIC investments fostered the creation of 268 jobs.
New SBA regulations issued in April 1994 require SBICs to assess and report
annually the economic impact of each financing, including such indicators
as the number of full -time equivalent jobs created or retained and    the
revenue and taxes generated by the companies. Depending on the quality of

                                       v
the data, e.g., the credibility of the job -creation figures submitted, we
believe these reports will be useful for measuring the SBIC program's
effectiveness. To minimize the burden on SBICs and to assure comparability
through standardization, we suggest that SBA develop specific guidance for
SBCs on the type of information to be provided. In addition, the Agency
should require SBICs to report the total amount of financing each portfolio
company received from other sources to enable SBA to estimate more
accurately the extent of the SBICs' impact on the economy.

                          Investment Division Comments
The Investment Division commented that this report accurately summarizes
the characteristics which it should seek to find in new license applicants
and tries to encourage among its current licensees. In response to our
observation that successful SBICs appear to favor
investments in established, later -stage companies, the Division pointed out
that to promote the public policy of developing new businesses, it
sometimes encourages early -stage investment strategies. To offset the risk
involved in such strategies, the Division stated that it carefully
licenses managers with experience and talent in this type of investment.
The Division reviewed a draft of this report and we have incorporated their
comments into the final version. The full text of their comments can be
found in Appendix B.




                                       vi
                                            Background

To stimulate the small business segment of the economy, the Small Business
Investment Act of 1958 (the Act) authorized the Small Business
Administration (SBA) to license private sector corporations and
partnerships, known as Small Business Investment Companies (SBICs), to
provide equity capital and long -term loan funds to small business concerns
(SBCs) in need of financing for their growth, expansion, and modernization.
The Act was amended in 1972 to establish the specialized SBIC (SSBIC)
program, which targets SBCs owned by socially or economically disadvantaged
persons. SBICs' obtain their resources primarily from two sources--privately
invested capital and long -term debentures guaranteed by SBA. As of
September 30, 1993, there were l77 SBICs with about $2 billion in private
capital and $548 million in SBA leverage, and 103 SSBICs with about $191
million in private capital and
$311 million in SBA leverage.
SBICs may finance SBCs through equity (stock), debt (loans), or a
combination of both. Equity -oriented SBICs are those for which more than 70
percent of the total dollar amount   of their investments in small businesses
is in the form of equity financing. Conversely, debt-oriented SBICs have
more than 70 percent of their dollar investments in the form of debt. All
other SBICs are considered balanced. As of September 30, 1993, 65 SBICs were
equity-oriented, 101 were debt -oriented, and 111 were balanced, according to
a responsible SBA official.
To qualify for a license under the SBIC program, a corporation or limited
partnership must meet minimum capitalization requirements ($2.5 million for
SBICs and $1.5 million for SSBICs) and have an SBA approved manager to
oversee the SBIC's operations and serve its portfolio companies. For each
dollar of private capital maintained, the SBICs may receive up to $2 to $3
of long -term (up to 10 years) leverage in the form of SBA   -guaranteed
debentures. The debentures provide for semiannual interest payments and a
lump -sum principal payment at maturity. In addition, an SSBIC qualifies for
leverage equal to 100 percent of its private capital through the sale of 4
percent, cumulative, preferred stock to SBA.
In recent years, the Congress and SBA have become concerned over the
increasing number of SBICs entering liquidation. According to the U.S.
General Accounting Office, for the five-year period ending in September
1991, SBA incurred losses of over $90 million from the liquidation of 126
SBICs. This was more than 3 -1/2 times the amount lost during the previous 28
years. Most SBICs entered liquidation due to excessive losses, defaults on
payments to SBA, or bankruptcy. 2 As of May 31, 1994, 199 active SBICs were
in liquidation with outstanding SBA guaranteed debt of over $531 million.




  l
      Unless otherwise noted, “SBIC” represents both regular SBICs and SSBICs.
   2Small Business: Financial Health of Small Business Investment Companies      (GAOIRCED -93-51,
May 5, 1993, p. 1).

                                                  1
In April 1994, SBA issued new regulations for the SBIC program that
affected the eligibility and operations of the SBICs and the financial
assistance provided by SBA. A key change to the regulations was the
establishment of a new form of SBA leverage known as a participating
security,3 available to regular SBICs that make equity investments. Under
the previous regulations, leverage for regular SBICs consisted solely of
debentures requiring semiannual interest payments. Regular SBICs that
primarily made equity investments, however, were often unable to meet their
payments on debentures due to insufficient returns from SBCs with low cash
flow. With the participating securities, the SBICs are required to make
payments to holders of the securities only after sufficient profits have
been earned.
Other changes to the SBIC program regulations in 1994 include (1) a
requirement that each SBIC's management have the necessary "knowledge,
experience and capability" to make the type of investments contemplated
under the program and stipulated in the SBIC's business plan, (2) an
increase in the maximum amount of SBA leverage available to each SBIC from
$35 million to $90 million, and (3) a requirement that the SBICs report on
the economic impact of each SBIC financing, specifying jobs created or
retained, expanded revenues and taxes generated by the SBC, and other
economic benefits. 4
The SBIC program is administered by SBA's Investment Division. Within the
Division, the Office of Operations oversees and regulates all SBICs in good
standing. At the end of each fiscal year, the Office requires each SBIC to
submit a report (SBA Form 468) that includes independently audited
financial statements. Operations staff review the reports to determine the
financial health of the SBICs.
In addition, the Division's Office of Liquidation oversees the liquidation
and sale of assets of SBICs that have violated program regulations or
entered bankruptcy. The Office of Examination inspects the books and
records of active SBICs to ensure compliance with program regulations.
Finally, a newly founded Licensing Unit is responsible for performing in-
depth analyses of applicants' business plans, management qualifications,
performance projections, and other criteria to ensure that new SBICs meet
eligibility requirements and standards for quality.




  3
   Participating securities are equity -type securities with the characteristics of
preferred stock or a preferred limited partnership interest. Payment on these securities is
required only to the extent of earnings.
  4
      Federal Register, Vol. 59, No. 68, Part II, pp.l6897   -16956, April 8, 1994.

                                                 2
                                Objectives, Scope, and Methodology
We initiated this inspection in November 1993, in response to the Clinton
Administration's emphasis on identifying and encouraging good program
operations throughout Government. Specifically, the objectives of our
inspection were (1) to identify management practices common to financially
successful SBICs that could be replicated in new or otherwise less
successful SBICs and (2) to determine the impact such SBICs have had on
their portfolio companies in terms of growth.
To obtain information on the operations and management components of a
successful venture capital firm, we met with outside venture capital
experts, the presidents of the National Association of Small Business
Investment Companies and the National Association of Investment Companies,
and key SBA officials.
We also conducted case studies of nine financially successful SBICs,
including two SSBICs, to identify traits common to profitable SBICs. The
seven regular SBICs we examined included BT Capital Corp. (New York),
Capital Southwest Venture Corp. (Dallas), CIP Capital, L.P. (Malvern, PA),
Kansas Venture Capital, Inc. (Overland Park, KA), Norwest Growth Fund, Inc.
(Minneapolis), TLC Funding Corp. (Tarrytown, NY), and Ventex Partners, Ltd.
(Houston); the two SSBICs were Peterson Finance and Investment Company
(Chicago) and TSG Ventures, Inc. (Stanford, CT). Appendix A to this report
provides a profile of each SBIC and SSBIC.
To select the companies for our case studies, we asked Investment Division
officials to identify regular SBICs and SSBICs that, based on their
knowledge and experience, were operating at a profit. We then verified the
selected companies' profitability based on their most recent annual
                                                                       5
financial statements filed with SBA. We considered their net income      , return
                    6
on invested capital , unrealized gains, liquidity, and retained earnings. We
eliminated any companies in which SBA examiners or auditors had recently
found regulatory violations. Finally, using Investment Division data on
SBIC investment activities and financial condition, we selected what we
consider a fair representation of SBICs in terms of size, investment
orientation, bank affiliation, and concentration of industries in which
they invest. To distinguish by size, we defined a large SBIC as having more
than $10 million in capital resources and a small SBIC as having less than
$5 million. We used the Investment Division's criteria to determine
investment affiliation: an equity -oriented SBIC is defined as one that made
70 percent or more of its financings (in terms of dollars) through equity
investments and a loan-oriented SBIC as one that made 70 percent or more of
its financings in loans.




          5
              Defined as net investment income plus realized gain on sale of securities.
      6
          Defined as the ratio of net income to private capital plus retained earnings.

                                                   3
For selection purposes, we defined a bank -dominated SBIC as one in which a
bank had at least a 50 percent interest and a nonbank SBIC as one with no
bank ownership. We defined an industry-concentrated SBIC as one with at
least 60 percent of its financings in any one particular major industry
area (as defined by SIC codes) and a diversified SBIC as one with no more
than 40 percent of its financings in any one major industry area Finally,
we selected one Black-operated SSBIC and one Asian   -operated SSBIC.
To conduct our case studies, we reviewed SBA files containing each SBIC's
licensing application and pertinent information on its operations. These
files included such documentation as officers' resumes, business plans, and
annual financial statements. When necessary, we obtained clarification on
information contained in the files from the SBA account executive
responsible for the SBIC.
In addition, we conducted in -depth interviews with the presidents and other
key officers of the SBICs, and, in some cases, members of their boards of
directors. During these interviews, we obtained information on the
background and characteristics of the SBIC officers, officers' compensation
arrangements, fund -raising and investment strategies, deal structuring,
monitoring of investments, the extent of technical assistance provided to
portfolio companies, and exit strategies.
We also compared the SBIC presidents' compensation with that of their
counterparts in private sector venture capital Firms, as reported by Hay
Management Consultants in its 1992 annual    Hay Venture Capital/LBO Industry
Compensation Report (the most recent year available). We excluded from our
analysis the compensation of the presidents of two SBICs that made only
loans. In our opinion, these SBICs functioned more as lending companies
than venture capital firms, and salary comparisons between the two groups
would not be valid. For the seven presidents whose salaries we compared
with the Hay Consultants' data, we used SBIC presidents' base salaries for
the most recently available fiscal year combined with any bonuses received
in 1993. We compared these compensation levels with the me    dian Compensation
levels (salary plus bonus) reported by the Hay Group. The median was based
on self -reports of 59 presidents/chief executiv e officers (CEOs) who
responded to the survey.
We recognize that because this study's conclusions are based on case
studies of seven regular SBICs and two SSBICs, they cannot be projected to
the universe of 280 SBICs. The nine SBICs are not intended to be a
representative sample of all SBICs. We believe, however, that our
comprehensive data gathering on a cross -section of SBICs make the common
factors we identified among the nine financially successful SBICs useful
for projecting whether individual SBICs will be profitable.
We attempted to further substantiate our observations by comparing the
characteristics of the financially successful SBICs in our study with those
of failed SBICs. To determine factors lending to the financial failure of
SBICs, we reviewed recent reports on the subject and spoke with the former
Director and the current Acting Director of the Liquidation Division, as
well as with other knowledgeable officials in the Investment Division. We
also reviewed the files of one SBIC and one SSBIC currently in liquidation
and clarified information contained in the files with the responsible SBA
officials and Agents in receivership. 7 Liquidation officials selected the
files at our request to illustrate the characteristics of failed SBICs.
To determine the impact that the SBICs in our study have had on successful
SBCs in their portfolios, we conducted telephone interviews with the
                                       4
presidents or other key officials of 17 SBCs that have received financing
from the SBICs. We obtained information from at least one SBC for each of
the nine SBICs in our study. The companies we contacted were among those
identified by the SBICs as their most profitable, subsequent to receiving
the SBIC's financing.
We conducted our work between December 1993 and June 1994 in accordance
with the Quality Standards for Inspections   issued in March 1993 by the
President's Council on Integrity and Efficiency.




  7
   Under a receivership, a Federal court appoints SBA as “receiver” to liquidate SBICs'
assets. SBA, in turn contracts with agents for this purpose and oversees their work.

                                               5
                                    FINDINGS
                      Practices Common to Profitable SBICs



Practice 1. Financially successful SBICs are headed by managers who are well
           qualified in terms of their work experience and academic backgrounds.


Attributes:

· Presidents had many years of experience in venture capital or related
fields.
· Presidents and officers had relevant academic training--frequently
 advanced degrees-- business related fields.
· Presidents exhibited integrity and strong business skills, in the
 opinions of portfolio company officials .


Overwhelmingly, the presidents and officers of the SBICs we visited were
well-qualified for their positions, based both on their previous work
experience and academic training. The heads of the portfolio companies with
whom we spoke expressed great respect for their respective SBIC presidents'
business acumen, integrity, and willingness to share their expertise with
the SBCs.

Principals Had Many Years of Relevant Work Experience

At each of the seven SBICs we visited that made equity investments, the
presidents had many years of previous venture capital, investment,
investment banking, and/or corporate finance experience. At the two
loan -oriented SBICs, the presidents appeared to be equally well-qualified:
both were certified public accountants (CPAs) with several years of public
accounting experience, and one also had several years experience in owning
and operating a finance company. Most of the presidents had been in their
current positions for at least 10 years. Furthermore, the majority of the
professional staff at the equity -oriented SBICs had worked for two or more
years in investment banking, corporate finance, or venture capital before
joining the SBIC.


SBIC representatives, SBA program officials, and other outside experts
agree that experience in venture capital and related areas, e.g.,
investment banking or corporate finance, is critical to successfully
managing an SBIC. These backgrounds are valuable in raising private capital
for the SBIC, identifying deal sources, and making wise investment
decisions. A recent study on private venture capital reported a link
between venture capital experience and a firm's
ability to attract private capital. 8 By the same token, knowledgeable SBA
officials consider experience in commercial lending, credit management, and
collection vital for the successful management of a loan   -oriented SBIC.
The president of one equity -oriented SBIC --who has held the positio n for 11
years--previously had nine years of investment banking and corporate
                                       6
finance experience, including negotiating mergers and acquisitions, before
joining the SBIC as a vice -president in 1979. In addition, he had also
owned and operated a small business for five years--an experience which he
said is valuable in making decisions on whether or not to finance a
prospective company.
The head of another equity -oriented SBIC had more than 25 years of
investment banking, corporate finance, and venture capital experience when
he assumed his position in 1984. He also sits on the boards of directors of
several outside companies. Several SBIC officers at the equity    -oriented
SBICs we visited told us that they had made their employment decisions
based, in part, on the quality and experience of the SBIC's management team
and the mentoring that the new officers expected to receive from their
managers.
The presidents of the two SBICs that make strictly loan financings were
also well-qualified. One, for example, is an attorney and CPA who also owns
and operates an equipment financing company. President since the SBIC was
licensed in 1970, he also has about 40 years of experience as an attorney
(specializing in commercial and tax law) and 30 years as a partner in a
public accounting practice.

Officers Had Relevant Advanced Degrees
                                                       9
By and large, the presidents and other deal officers     have excellent
academic qualifications. Of the 37 officers in the nine SBICs we studied,
nearly three-quarters have one or more graduate degrees, 81 percent of
which are MBAs. Other advanced degrees include JDs, MSs or PhDs in
Engineering or Technology, and an MS in Economics. Seventy    -seven percent of
the MBA holders obtained their degrees from business schools that rank
among the nation's top 25. 10 In addition, almost half of the 37 officers had
received scholastic honors in their undergraduate or graduate programs
(e.g., graduating magna cum laude), and 30 percent had obtained a CPA
certificate. Jeffry Timmons, the co -author of Venture Capital at a
Crossroads and a leading researcher on venture capitalism, stated that he
has consistently




8
    W.Bygrave and J. Timmons,   Venture Capital at the Crossroads   (Boston: 1992), p.202.
     9
   Deal officers are professional staff at equity -oriented SBICs who engage in identifying
and evaluating investment opportunities and structuring the resulting deals.
     10
    Based on the U.S. News & World Report      annual survey of graduate schools of business,
March 21, 1994.


                                                   7
observed that better -managed venture capital firms ar e characterized by
managers who have excelled in their academic or professional pursuits,
regardless of the field.

Members of Boards of Directors Were Also Highly Qualified
Three of the nine SBICs have active boards of directors, i.e., boards which
meet regularly on a formal basis, have responsibility for approving all
investing and/or lending decisions, and whose members assist    - through their
extensive professional and/or community networks--in identifying or
evaluating deal opportunities. In all three SBICs, the board members have
wide -ranging experience in venture capital or commercial lending and in
many cases are leaders in their fields. For example, in one large
bank -dominated SBIC which makes numerous investments in manufacturing,
board members include former CEOs of major manufacturing corporations, and
the past chairman and vice chairman of the parent bank.

Personal Characteristics of SBIC Managers and Officers
The presidents and other key officers of the SBICs' portfolio companies
that we surveyed voiced strong praise for the SBIC managers in terms of
their integrity, professionalism, helpfulness, and business sense. In many
cases, the SBIC is one of a number of investors in a company and the amount
of its investment is small compared to others the company    received.

For example, a vice president of a medical equipment and supplies company
stated that he considers the SBIC that invested $3 million in his company
(out of a total of $27 million that the firm received in investments and
bank loans) to be a "true friend" of the company. He noted that the SBIC's
officers with whom he dealt provided expert advice and assistance whenever
the company made a request. He considers the SBIC officers to be "true
professionals who know what they are doing.   n


The chief financial officer (CFO) of a telecommunications company praised
the president of the SBIC from which it received two investments totaling
$1.1 million for his "sincere" interest in wanting to help the company. The
CFO said the SBIC president acts as a business advisor to the company by
assisting with business strategy and generally giving his "wisdom" when the
company makes business decisions.
Six companies specifically referred to the SBIC presidents' and officers'
integrity and steadfast support, as demonstrated, for example, by their
willingness to help the companies through business downturns rather than
immediately taking ownership of the company to protect their interests, as
other venture capitalists might. 11 The president of a diamond
    11
       13 CFR 107.801(c) permits a licensee to acquire temporary voting control over an SBC
where reasonably necessary for the protection of its investment.

manufacturing company which had received $1.75 million from an SBIC said
the officer with whom he dealt gave him "total confidence" that the SBIC
wasn't going to "steal” his company. The president said that, as a
consequence of a previous deal in which an investment firm took ownership
of his former company during a downturn, he generally
views investment bankers as “bank robbers without the masks." In contrast,
he regards the SBIC as "tough but honest."
Similarly, the president of a sporting goods company that received a $6
million financing from an SBIC in our study stated he had heard “horror
                                                8
stories” about venture capital firms that sell their interest too soon or
rush to take over a business. His experience with the SBIC dispelled this
notion, however, when he found that the officer with whom he dealt was more
interested in the growth of his company than a short   -term profit.
During our extensive interviews with the presidents of the financially
successful SBICs, we observed common personality characteristics. The
presidents came across as self -confident and sincere, had exceptional
interpersonal skills, and spoke enthusiastically and, we believe, candidly
about all aspects of their work. Several referred specifically to the
importance they place on integrity, not only in the managers of the
companies in which they invest, but in their own staffs. In general, they
appeared to value staff honesty and decency as much as staff competence.
Consistent with the premium they place on integrity, the presidents also
indicated a willingness to comply with SBA program regulations, despite
personal reservations, in some cases, about the need for specific
provisions. SBIC program management believes there is a correlation between
performance and regulatory compliance, based on its observations that the
more successful SBICs tend to have fewer violations of SBA regulations.




                                       9
Practice 2. Profitable SBICs offer compensation packages and intangible benefits
            sufficient to attract and retain high-quality personnel.

Attributes:
· Most of the financially successful SBICs provide their presidents with
 compensation that is competitive with the private venture capital
 industry.
· Some SBICs offer stock options or bonuses based on their pretax income.
· SBICs with lower compensation offer other valued benefits, such as staff
 cohesiveness and empowerment.


Successful SBICs place a high priority on attracting and retaining quality
staff, and most of those in our study offer their presidents compensation
packages (base salary plus bonuses) that are competitive with others in the
private sector. SBICs with compensation packages lower than those of the
private sector usually offer other intangible benefits.


The Majority of Successful SBIC Presidents Receive Compensation That Is
Competitive With the Private Sector
In 1993, four of the seven presidents of equity -oriented SBICs recei ved
compensation that was higher than that of their peers at private venture
capital firms.'2 Another SBIC president declined to disclose his
compensation, but indicated that it was competitive with that of his
counterparts in private firms. Each of these five presidents stated that
their individual compensation packages are a key reason they have remained
with the SBIC.
The presidents of two other equity -oriented SBICs received total
compensation in 1993 that was less than 50 percent of the average for
private sector presidents. Neither of the SBICs, however, had yet
established planned bonus systems, and one of the two presidents, as well
as his three officers, had earlier agreed to receive nominal salaries
during the SBIC's first few years of operation. He indicated that he
expects to realize significant bonuses when the SBIC, which has been
licensed less than three years, begins to sell its investments.
Several other SBIC officers to whom we spoke cited competitive salaries,
bonuses based on SBIC pretax income, and stock options as the primary
compensation package features that




    12
     One of the four SBIC presidents said he received high compensation in 1993 because of
an unusually large bonus due to significant gains on selling profitable investments.


                                              10
helped attract and retain them. High salaries may be a particularly
important factor for officers with extensive backgrounds in related areas.
Three officers who stressed salary levels are particularly well    -qualified:
two have investment banking backgrounds and the other
has been an entrepreneurial consultant and a controller of a manufacturing
business.
Currently, five of the seven SBICs offer or plan to offer bonuses to all
deal officers based on a specified percentage (usually 20 percent) of the
SBIC's pretax income. The president of one of these SBICs stated that,
although most private venture capital firm officers do not receive bonuses
on pretax income until the age of 40, two vice -presidents at his current
SBIC, under the age of 40, share in the pretax income bonus. Another SBIC
offers a stock option plan, in addition to bonuses, for selected senior
officials, and a vice -president told us that the plan is a major reason he
stays with that firm.

Profitable SBICs Offer Other Intangible Benefits to Attract and Retain Staff
While we did not have enough data on SBIC officers' compensation (other
than that of the presidents) to make a valid comparison with compensation
packages offered in the private sector, our discussions with the officers
indicated that the SBICs are able to attract and retain quality staff using
intangible benefits as well as salary. In particular, they indicated that
the absence of a rigid bureaucracy allows deal officers to wield
significant influence on investment decisions.
Several SBICs have small staffs, which appeal to many of the SBIC
professionals with whom we spoke because they can work on all aspects of
deal making, including finding and evaluating the deals. Further, the fact
that deal officers must concur on an investment proposal before finalizing
it or submitting it to the board of directors produces a sense of staff
empowerment. Officials at several SBICs told us that they enjoy their work
because they are free to discuss investment opportunities informally among
themselves and have significant latitude in exercising their creative
judgment in identifying and evaluating investments.
Several SBIC presidents stated that quality -of-life considerations, such as
strong staff cohesiveness and limited travel, also assist in attracting and
retaining quality staff. One SBIC president, for example, told us that
staff compatibility is important to morale and that, when hiring, he
considers how well new candidates would fit in with existing staff in terms
of motivation, work habits, and personality. The president and officers of
another SBIC attested to its collegial atmosphere; all the staff knew each
other previously through former jobs or networking, and they work well
together.




                                       11
Practice 3. Financially successful SBICs are adequately capitalized and follow
            good cash management principles.

Attributes:
· SBICs with relatively low private capital adapt their investment
 strategies to the size and mix of investments appropriate for their
 available capital.
· SBICs take steps to ensure that they can make payments on SBA debentures
 and other liabilities.


All the SBICs we reviewed appear to have adequate capital for their
operating needs, with private capital ranging from $1 million to $120
million. We believe that all SBICs in the study follow good cash management
principles in maintaining a solid liquidity position.   13




SBICs With Limited Private Capital Tailor Investment Strategies to the Amount of
Funds Available
SBICs with relatively small private capital design their investment
strategies according to the amount of capital available. For example, two
of those in our study confine themselves to straight loan financings, which
ensure sufficient cash inflows for paying off current liabilities. Each
also uses a rigorous loan approval process to assure the creditworthiness
of loan applicants. One primarily makes loans in industries in which the
president--the SBIC's only deal officer--has experience and expertise. In
another case, an equity -oriented SBIC only makes investments that can be
converted to cash within a two-to-four year timeframe, thus assuring a
sound liquidity position.
As an example of the way private capital availability affects investment
size, one SBIC with private capital of just over $1 million makes
investments ranging between $80,000 and $100,000. In contrast, an SBIC with
$120 million in private capital makes some investments exceeding $14
million. By making a larger number of relatively small investments, SBICs
with limited capital are able to spread overall risk, thus minimizing their
chances of financial failure. 14




    13
      Liquidity position refers to a company's ability to generate cash from its assets to
pay short -term liabilities. The higher the ratio of “liquid” assets to short -term
liabilities, the better the company's liquidity position.
    14
      SBA regulations stipulate that investments in any one portfolio concern cannot exceed
20 percent of the SBIC's private capital (30 percent for SSBICs).



                                               12
Financially Successful SBICs Exercise Prudent Cash Management Principles
Regardless of the amount of private capital available, each of the
profitable SBICs stresses sound cash management principles, especially in
terms of matching cash flows of assets and liabilities so that the firm has
                                                         15
a solid liquidity position. According to a 1991 study,      a major factor
responsible for the financial failure of some SBICs is a mismatch between
its sources and uses of funds. The mismatch occurs when an SBIC makes
equity investments that have insufficient returns over the near term to
cover its immediate liabilities, including semiannual interest payments on
SBA debentures.
The SBICs in our study that have significant SBA leverage, relative to
their private capital, fully recognize the need to have cash on hand to
meet current obligations. For instance, one SBIC that has almost equal
amounts of SBA leverage and private capital invests in SBCs in which its
equity investments can be liquidated within two to four years. This ensures
that the SBIC will have adequate cash to make payments on its SBA leverage
and other liabilities.
In another case, a loan -oriented SBIC with a small proportion of private
capital is able to meet its semiannual payments on an SBA debenture bearing
a 12 percent interest rate by charging the maximum allowable interest rate
on the loans it makes. 16 A third SBIC favors making financings in the form
of notes convertible to common stock so that, at least initially, it can
depend on an inflow of cash to meet SBA debenture payments and other
current liabilities.
The SBICs' strong liquidity positions, measured by the ratio of current
assets to current liabilities, are evidence    of sound cash management
principles. To test their positions, we measured each SBIC's current ratio
(current assets to current liabilities) as of the most recent fiscal
year -end. At that time, seven of the nine SBICs had a ratio over 10; as a
general rule, a ratio of 2.0 or higher signifies a sound liquidity position
in terms of debt -paying ability. 17 Although two of the profitable SBICs had
ratios of less than 1.0, we believe that their liquidity positions were
sound, given their available capital resources and other circumstances. The
SBIC with a ratio of 0.14, which was partially due to $5 million in SBA
debt maturing within the current year, had over $20 million in unrealized
gains on its investments, part of which could be sold to meet current
obligations. The SBIC with a current ratio of 0.96 had,




    15
      E. Holloway and J. Werner, SBIC Program Review of Selected Issues for the Committee on
Small Business. United States Senate (Washington: June 1991), p. 69.
    16
      Previously, the maximum interest rate an SBIC could charge on loans was the higher of
(1) 15 percent or (2) the current interest rate on SBA debentures plus 7 percent. New SBIC
regulations, issued in April 1994, added a third option to the maximum allowable interest
rate: the weighted average cost of qualifying borrowings (SBA debenture and other borrowings
of the licensee) plus 7 percent.
    17
      W. Pyle and K. Larson, Fundamental Accounting Principles (Homewood, IL: 10th Edition,
1984), pp. 695-696. The authors further state that the current ratio is only one factor that
is used in analyzing a company's liquidity position.

                                              13
as current debt, a $68 million note to a related party (a parent
corporation), which can be more readily postponed than debt to a third
party. This SBIC also had a $15.6 million unrealized gain on unsold
investments.




                                       14
Practice 4. Profitable SBIC investment strategies generally minimize risk.
Attributes
· SBICs develop clear and well -defined investment strategies and adhere
 closely to them.
· Strategies include reducing risk by investing in:
· Industries in which the SBIC managers have expertise;
· Later -stage companies with proven track r           ecords;
· Companies which have an established market niche; and
· Firms whose management has a record of competence and integrity.

Successful SBICs have explicit investment strategies that generally serve
to minimize risk. The SBICs in our study favor strategies that are
inherently conservative, e.g., investing in companies in which they can
expect to exit in a relatively short time (three to five years), and
emphasize the importance of adhering to their investment strategies. We
believe such strategies are key to the SBICs' financial success. As
effective as they are, however, they appear to run counter to popular
perceptions of venture capital as primary funding for relatively long    -term,
high -risk investments in "seed" companies, start -ups, and high technology
businesses."



The SBICs' strategies typically include what one president called "sticking
to your knitting: focusing investments in industries where officers have
expertise and avoiding industries in which they have little or no
experience. For example, as a group, the officers at one SBIC have
backgrounds in physics, pharmacology, and corporate finance in the
telecommunications industry. Accordingly, their strategy is to concentrate
investments in the biotechnology, telecommunications, and financial
services industries. Another SBIC's strategy is to invest primarily in
retail firms, manufacturers, specialty chemical firms, and high    -technology




    18
      A seed company has only a concept, which has yet to be implemented, and usually
searches for funding to develop a business plan, build    8 team, develop products, or conduct
market research. A start -up company normally has completed product development and initial
marketing; it may be in the process of organizing or may have been in business for a short
time, but has not yet sold its product commercially.

                                               15
industries, reflecting the SBIC officials' backgrounds in chemical
engineering, mechanical engineering, aerospace engineering, and retailing.
Because profitable SBICs generally avoid industries they do not thoroughly
understand, most do not invest in high technology
industries. One official told us, however, that his SBIC would consider
co-investing in high technology if the other investor had the requisite
industry knowledge.
SBICs Prefer Investing in Established, Later-Stage Companies
Most of the successful SBICs favor investing mainly in later   -stage
companies, which are established firms with proven track records, and
specifically avoid start -up or seed companies due to the riskiness of these
investments. One president stated that after investing in two start   -up
companies that subsequently failed, his SBIC no longer makes such
investments.
Two SBICs prefer financing leveraged buy -outs (LBOS)'9 because of the potential
for large financial gains. According to one president, LBO investments have
a history of profitability, highly predictable cash flow, and managers with
track records. Another SBIC president noted that LBO investments are "a
less risky way to help businesses grow.
We recognize that such "safe" investment strategies may conflict with the
program's public policy goal of investing in SBCs that could not otherwise
get financing. The portfolios of some of the successful SBICs we reviewed,
however, did include some high risk investments, e.g., start   -ups and high
tech companies. The Associate Administrator for Investment stated his
belief that many SBICs have made money on risky investments. Such
investment decisions are prudent, he said, as long as they are made by
managers who understand the nature of the risk.

SBICs Favor Companies with a Market Niche and Proven Management
Successful SBICs generally seek to invest only in those businesses that
have a market niche, i.e., a competitive advantage in a clearly defined
segment of the market. S~3ICs also look for companies with management teams
that have a reputation for competence and integrity -- factors that many
consider the most crucial part of their investment strategies. The
discussion under Practice S describes further how SBICs analyze SBC
managerial capability and integrity when making investment decisions.




    19
      In a leveraged buy out, a purchaser may use SBIC financing, possibly combined with
other financing, to buy an existing business.
                                               16
SBICs Use Other Conservative Investment Strategies

SBICs apply additional strategies to protect against losses, including
using a rigorous investment approval process and making debt rather than
the more risky equity financings. Three of the equity   -oriented SBICs
require that deal officers unanimously agree on an investment opportunity;
one, in fact, conceded that it may miss some good opportunities because of
this policy, but the policy keeps losses to a minimum.
Several equity -oriented SBICs prefer making financings with debt securities
(debt convertible to stock) rather than equity securities (preferred stock
or common stock) because debt securities offer a current return with
periodic interest payments. In many cases, however, SBICs may be forced to
issue equity securities because of competition from outside investors and
an SBC's desire to keep its liabilities constant so that it can more easily
obtain additional financing.
Many of the SBICs prefer restricting investments to SBCs that they believe
can meet certain performance criteria. For example, several SBICs finance
only businesses that can generate liquidity, i.e., firms that are
relatively easy to sell to an outside party, within a specified timeframe,
usually three to five years. Another SBIC frequently conditions its deals
on the SBC making an initial public offering (IPO) of stock within a
specified period of time. The SBIC provides added financial incentives for
the companies to meet the IPO timeframes, such as returning some stock to
the SBC without recompense. Other SBICs favor investments that will achieve
a specified rate of return over a fixed period and focus their investment
analysis on determining the likelihood of the SBC achieving the return
rates.
SBICs Consistently Follow Their Investment Strategy
Profitable SBICs rarely deviate from their investment strategies unless
changing market or economic conditions force them to do so. Several SBIC
officials emphasize the importance   of this disciplined approach to venture
capital investing. One president, for example, stated that during the
economic boom in the 1980s, venture capital firms tended to overpay on
investments or make investments that did not fit their investment
strategies "just to get into the game.” As a result, these firms would
often give up potential profits on such investments. In contrast, according
to this official, his SBIC exercises caution by always following its
investment strategy and avoiding impulsive investments. Due to their more
limited ability to absorb losses, the smaller SBICs were particularly
emphatic about the danger of deviating from an investment strategy.
Larger SBICs, which generally have a wider array of industry expertise, may
be better able to modify their investment strategies in response to
changing economic or market trends. One SBIC views an investment strategy
as being dynamic, and its officers hold periodic meetings to discuss
possible changes. For example, he indicated that during an economic boom it
may be better to invest in start -ups rather than later -stage concerns.
Conversely,

during recessions, it may be more advisable to invest in later    -stage
companies. Many successful SBICs insist on retaining sufficient flexibility
in their strategies to permit changes in industry focus or business stage
warranted by shifts in the marketplace. For example, one
SBIC has refrained from investing in health care industries due to
                                       17
uncertainty over the sweeping changes in health care that are under
discussion in the Congress. As a general rule, however, the senior managers
of profitable SBICs make a conscientious effort to adhere to
their investment strategies.




                                       18
Practice 5.      Financially successful SBICs use a systematic approach    to
identify, evaluate, and structure deals.

 Attributes:
· SBICs have extensive networks of industry contacts to identify investment
 opportunities.
· SBICs thoroughly assess each SBC's management team and conduct due
 diligence renews.
· SBICs structure deals to benefit the companies while ensuring adequate
 protection for the SBICs.

A successful SBIC tailors its investment process--identifying, evaluating,
and structuring deals--to its particular investment strategies and goals.


SBICs Use Extensive Networks of Contacts to Identify Investment Opportunities


The goal of any venture capital firm is to identify new and young companies
with high potential for growth. While only a few of the SBICs we visited
concentrate on relatively high -risk firms, such as start -up or early -stage
companies, all strive to identify companies with high growth potential. The
primary sources for identifying and referring investment opportunities are
the personal networks established by SBIC officials within various
industries. These networks often evolve from previous work experience in
the venture capital industry and personal affiliations with the business
community. According to several SBIC officials, the better the reputation
of the SBIC, the greater the network's effectiveness in referring quality
investment opportunities.
The SBICs' networks generally consist of lawyers, accountants, investment
bankers, brokers, other SBICs, venture capital firms, current and former
portfolio companies, social and professional organizations, and co-
investors. Attorneys and accountants are among the best sources for
referring investment opportunities because, as the president of one SBIC
stated, "as their clients' businesses grow, so do their own." Current and
former portfolio companies are also excellent sources; in one case,
two-thirds of the SBIC's investment portfolio is made up of companies
referred by other portfolio firms. Many SBICs direct their marketing
efforts towards their networks by sending out brochures and other materials
to keep their names in front of those most likely to come into contact with
quality investment opportunities. Most of the 17 SBCs we contacted stated
that they learned of an SBIC either because someone in the




                                       19
company was familiar with it or because a third party, such as a financial
advisor, accountant, or another venture capital firm, referred them to it.
A few SBICs also use the traditional cold call method to identify
investment opportunities in their industries of interest. One SBIC
indicated that its officers spend much of their time "knocking on as many
doors as possible." An SBIC that concentrates in high   -tech industries often
finds good investment opportunities at colleges and universities involved
in technological research. A loan -oriented SBIC has had success in
identifying prospects by obtaining a list of trade show attendees in
advance and contacting them to try to set up meetings during the show.
By all accounts, however, most investment opportunities are unsolicited
deals that, as one officer put it, "come in over the transom." Because the
vast majority of unsolicited deals fail initial screening for lack of key
attributes of quality, e.g., growth potential, qualified management, and
market niche, profitable SBICs end up screening numerous deal possibilities
before finding one worthy of investment. The average number of investment
opportunities received annually by the equity -oriented SBICs we reviewed
ranges from 480 to 2400, but the number of new deals each executes ranges
from 1 to 20 a year.

SBICs Carefully Analyze and Evaluate Each Prospective Deal Before Making an
Investment
Successful SBICs use a systematic process for evaluating investment
opportunities they have identified. A prospective deal is subjected to a
detailed analysis focusing on the company's management, business plan,
financial records, and other key attributes. The company's potential for
growth is the primary consideration in equity financings, and its ability
to repay is the foremost concern in debt financings. The president of one
SBIC commented that the deal assessment process is "part art and part
science;” assessing the ability and integrity of a company's managers is
largely an art acquired through experience and intuition, while analyzing
technical data, such as financial statement reviews and market analyses,
requires the appropriate technical skills.
Management Analysis. All the SBIC officials we contacted agree that it is
essential for an SBIC to gather enough information about the capability and
integrity of the key officers of a business concern to achieve a high level
of comfort with management before making a deal. The management assessment
process normally begins after the preliminary market analysis and reference
checks have been conducted. This is largely an intuitive process involving
face -to-face meetings in formal and informal settings, with the goal of
spending sufficient time with the principals to gain insight into their
characters. To illustrate the importance of the caliber of managers, one
SBIC vice -president indicated that he would rather have an "A   -plus
management team and a B -minus deal than a good deal and a poor manager.
The primary management attributes that SBICs try to assess include:
·   The capability to take the company to the next level;
·   Compatibility with SBIC officials;
·   Reputation in the industry;
·   Integrity;
·   Knowledge of the industry;
·   Track record; and
    Grasp of what it takes to succeed.

                                         20
Factors that might eliminate a prospective deal include:
·   Lack of command of key issues;
·   No clear vision on how the company will go forward;
·   Generalized answers to specific questions posed by SBIC officials;
·   Inadequate understanding of the market competition; and
·   Unrealistic expectations.
Technical Evaluations. The due diligence review is the other major part of
the deal analysis process. During this phase, the SBIC determines if a
prospective SBC is financially sound and whether it has a viable product or
service that translates into growth opportunities. The technical evaluation
typically includes: (1) a review of the company's financial data, tax
returns, revenue projections, and business plan to determine the financial
health of the company, its strategy for growth, and how it will perform
under various economic and business conditions; (2) reference checks with
suppliers, customers, and industry contacts to assess, among other things,
the integrity and reliability of the company's management; (3) credit
cheeks to determine the SBC's payment history; (4) legal reviews to
determine such matters as patent rights; (S) industry and market analyses
to assess competition, trends, and position or niche; and (6) exit
potential.
The SBICs normally perform technical reviews in -house except when special
circumstances require outside expertise, such as matters involving legal
elements and highly technical issues.

Deal Assessment Process Varies According to Size of SBIC and Level of Risk.
The principal difference in the way the SBICs assess deals relates most
often to the formality of the process, with the smaller SBICs (five or
fewer officers) tending to be less structured in their approach than the
larger firms. For example, at one small SBIC all three investment officers
participate in the deal assessment process from the initial pre    -screening
to the closing of a deal. They all attend the face   -to-face meetings, which
are usually informal, and all three must agree before offering a deal.
Because two of the officers comprise the SBIC's board of directors, there
is no need to make formal presentations to the board. According to the
president of the SBIC, this informal method of operation grants the
officers the flexibility needed to react quickly to investment
opportunities. In another SBIC consisting of three officers, the sponsoring
officer has primary responsibility for performing the deal assessment,
while the other two remain largely outside the process. According to the
SBIC's president, this helps the two outside officers to keep perspective
and remain impartial in judging prospects. Once the assessment is
completed, a unanimous vote of the three officers is required before a deal
is presented to the Board of Director's investment committee.
In larger SBICs, the deal assessment process tends to be more formal. For
example, in the case of an SBIC that has over a dozen investment officers,
if a particular investment opportunity is considered risky, i.e., outside
the SBIC's investment strategy, the assessment process is very structured.
The sponsoring officer prepares a memo early in the process outlining
specific details of the prospective deal and circulates it to all the
SBIC's partners. Each partner then has an opportunity to comment on the
deal, including providing personal knowledge about the company's management
team or discussing the marketability of its product or service. After the
sponsoring officer completes the initial assessment process, the
prospective company's management team provides a formal presentation to all
                                         21
the SBIC's partners. At this point, unanimous agreement is required or the
deal is removed from consideration. After completion of the assessment
process, the deal is presented to an investment committee of the board of
directors for final approval.
If the investment opportunity is not considered risky, as defined by this
SBIC's investment criteria, the process is somewhat less structured. A team
of three deal officers is assembled, including the sponsoring officer who
is responsible for performing the initial assessment and briefing the other
two team members on the strengths and weaknesses of the prospective deal. A
detailed analysis is performed after all three team members agree to pursue
the deal. Once completed, a memorandum outlining the particulars of the
deal is presented to the investment committee for approval.
There are many alternative approaches, of course, but among the profitable
SBICs we examined, the larger the SBIC and the riskier the investment
opportunity, the more structured and formal the deal assessment process is
likely to be.

Deals are Structured to Meet the Goals of the Small Business and Protect the
Interest of the SBICs
Once a deal is approved, the next step in the investment process is to
structure it to satisfy the goals of both the SBIC and the SBC.
Accordingly, the SBICs attempt to match the type of financial instruments--
equity, debt, or combination--with the needs of the SBC while creating an
acceptable return for the SBICs.

Deal Structuring in Equity-Oriented SBICs. Several factors affect the type of
instruments used to finance a deal, including the amount of SBA leverage
outstanding, the stage of the small business, and whether other investors
are involved. Generally, SBICs with little or no SBA leverage and access to
large amounts of capital tend to be more equity -oriented in their deal
structuring, that is, they use preferred stock, common stock, and
convertible debt. Occasionally, the SBICs use debt instruments for
follow -on investments, but normally they include an equity component.
Equity instruments have the advantage of allowing the invested companies to
present to creditors a balance sheet with fewer liabilities. Convertible
notes offer an SBIC a current return, but the experience of one SBIC
suggests that careful consideration must be given to potential conflicts
with the strategies of co investors. A debt    oriented approach, for example,
might not fit well with a co- investor strategy that emphasizes equity
instruments. An investment may also be structured in stages; one SBIC, for
example, sets a total investment target up front for each deal but only
invests 30 to 50 percent of that amount in the initial financing, so that
funds are available to participate in subsequent rounds of investments.
Successful SBICs often build performance incentives into their deals. For
example, one SBIC adjusts the amount of its equity interest in a portfolio
company based on the company's performance without increasing or decreasing
the dollar amount invested in the company. If a company meets or exceeds
certain financial or performance milestones, the SBIC reduces its equity
share in the company by returning stock to the company. Conversely, if the
company fails to meet these milestones, the SBIC might require the company
to issue additional stock to the SBIC without compensation. Other SBICs
attach warrants 20 and put options 21 to their deals to offset the risk that an
SBC will not meet its projections. To provide additional motivation for SBC
                                       22
managers, some SBICs structure their deals t~ require the SBCs to establish
a compensation package that provides its managers with ownership, such as
stock options. A further incentive is to link the availability of follow    -on
investments with meeting specified performance goals.

Deal Structuring in Debt-Oriented SBICs. Deal structuring for the two
debt -oriented SBICs is less complicated because it involves debt
instruments only. I~e only significant variables for the debt instruments
are their terms: the amount, length of payment period, interest rates, and
payment schedule. For e~ample, loan terms may provide for "interest only"
payments in the first year to alleviate some of the financial burden on the
SBC. Alternatively, an SBIC may negotiate step transactions for loans that
carry built -in performance incentives i.e., disbursing loan proceeds in
increments after certain conditions are met, such as opening a new store.
This benefits both parties because it reduces the amount of the SBIC's
capital at risk and saves the borrower interest cost on loan amounts not
disbursed.




  20
    A warrant is a type of option to purchase additional securities from the issuer at a
specified price within a specified time period.
  2l
    A put option is a contract entitling the holder to sell (put) a    specific number of
shares of a security at a specified price within a specified period of time.
                                               23
Practice 6.      Profitable SBICs closely monitor the financial health of their
              portfolio companies to protect their   interests.



Attributes:
· SBICs monitor portfolio companies by:
· Occupying a position on the companies' board of directors or observing
 board meetings;
· Meeting with the companies' managers and conducting site visits;
· Reviewing the companies' financial and operational information; and
· Maintaining good cash collection procedures.



To track the progress and financial health of the invested companies, all
the SBICs closely monitor their investments. The method varies depending on
the type (debt or equity) and size of the investment, and it ranges from
simply keeping a watch over loan payments to daily oversight of the SBC's
operations.
Successful equity -oriented SBICs usually secure either a seat on the SBC's
board of directors or observation rights for all board meetings. This is
normally structured into the terms of the deal to ensure that the SBICs are
kept apprised of and have input into major management decisions. Most of
the SBICs also perform at least one of the following monitoring activities:
(1) conduct site visits and meet regularly with the SBC's management team;
(2) review monthly financial statements, annual business plans, and annual
audits; and (3) perform quarterly valuations of the portfolio concerns. In
addition, when a portfolio company experiences problems, the SBICs
accelerate their monitoring efforts by (1) requiring weekly "flash reports"
highlighting business activity, (2) holding weekly face   -to-face meetings
with the managers, and/or (3) encouraging more frequent meetings     of the
SBC's board of directors. In extreme cases, SBIC officials will require
daily meetings with the company's management team for a short period;
however, they try to avoid daily oversight due to the heavy staff
commitment it requires.
For the debt -oriented SBICs, monitoring loans mostly consists of
establishing good cash collection procedures and keeping a careful watch on
delinquent payments. One of the SBICs we studied uses a rigorous system for
collecting payment; it encodes blank checks with the account number of each
of the portfolio companies. When payment is due, a check is automatically
deposited into the SBIC's account. Thus, the SBIC quickly learns of a
problem if the bank returns the check due to insufficient funds. The SBIC
reports it has been so successful using this approach that 15 other lending
companies have emulated it. One of the SBIC's borrowers commented that this
process was more efficient than the traditional promissory note system
because it eliminated the need for a middleman. Both of the successful
debt -oriented SBICs follow standard lender procedures in cases of late
payment, and, on occasion, they may restructure the terms of a delinquent
loan by reducing the monthly payments and increasing the term of the loan.


                                          24
Practice 7. Successful SBICs add "value" to their portfolio   companies, in
           Conjunction with financing, thereby     increasing the companies' net
           worth.

Attributes:
· SBICs assist their portfolio companies by:
· Recruiting key personnel;
· Contributing to strategic planning;
· Analyzing prospective mergers and acquisitions; and
· Helping SBCs obtain additional sources of funds.

In addition to providing financing, the majority of the successful SBICs
provide assistance to their SBCs ranging from personnel recruitment to
active participation in business planning and decision   -making. These
activities are especially important in the venture capital industry because
they add value to portfolio companies by helping their net worth grow. As
one veteran venture capitalist noted, "value -added often provides the
margin of success over failure.” 22
Among the successful SBICs, officers most frequently reported assisting
SBCs by identifying and recruiting candidates for key positions and
analyzing and developing forecasts for prospective mergers, acquisitions,
and initial public offerings. 23 The SBICs also provide assistance in the
following areas:
developing compensation and employee benefit packages; Identifying problems
and formulating resolutions; Attracting other investors; Assisting SBCs in
obtaining credit from vendors and banks; Long -range planning; and Enhancing
financial systems.
As an example, the CFO of a telecommunications company indicated that the
SBIC has added value by having its president act as chairman of the
company's board of directors and assist




22
     Bygrave and Timmons, op. cit., p. 2a7.
      23
    An initial public offering occurs when a company makes its stock available for sale in
the publicly traded market for the first time.

                                              25
in strategic planning. When the two -year-old company received the SBIC's
first financing of $500,000 in 1991 (representing one   -third of the
company's total initial financing), the company was a defense business that
was venturing into telecommunications. Between 1991
and 1993, according to the CFO, the company had turned itself around so
successfully that it received an additional $125 million in financing from
other sources for further expansion.
Several company representatives credited SBICs with helping them obtain
additional financing, either by identifying other investors or lenders or
by providing credibility to the company through its association with the
SBIC. The vice -president of one company, for example, which had initially
obtained $14 million in financing from numerous investors, including
$100,000 from the SBIC 24 , said that the SBIC's participation in the joint
financing provided reassurance to other potential investors and influenced
their decision to make the financing .
A medical equipment and supplies company reported that when an SBIC
provided $3.2 million financing in 1986, it also identified and recruited a
new manager for the company. The individual had previously performed well
as a manager of another company that the SBIC had financed, and the firm's
vice president credited him and others who he brought in to run the company
with the company's success today.
As a final example, the president of a gasoline station that received a
$25,000 loan from one of the two SSBICs in our study relies on the SBIC
manager to explain business matters to him in the Korean Language. When the
station had to close for remodeling for two and one-half months, the loan
allowed the company to maintain a positive cash flow, continue to pay its
bills, and return to normal operations.




24
     The SBIC subsequently made a follow -on investment of $83,000.


                                                  26
  Portfolio Companies Credited SBIC Financing with Having Significant               Impact on
                              Their Financial Growth
The portfolio companies we surveyed, which were selected by the SBICs in
our best practices review, reported that the SBICs significantly affected
their companies' growth by providing critical financing and other added
value. The nine SBICs provided a total of $37.1 million in
financing to the 17 SBCs surveyed, representing just over 21 percent of the
SBCs' total financing. Overall, as of May 1994, the number of employees at
the SBCs had doubled and the amount of their revenues had almost tripled
since receiving the SBICs' initial financings.
Six of the financings were early stage (including seed and start     -up), two
were mezzanine, 25 four were later stage, and five were LBO or acquisition.
It should be noted, however, that, except in four cases where the SBIC
provided the only source of financing to the SBC, there
is no way to attribute these gains directly to the support provided by the
SBICs. As shown in Table 1, in these four cases, the SBICs financed a total
of $6.6 million, leading to the creation of 268 jobs. Two of the four SBCs
were start -up companies.
Impact on Company Growth When the SBIC was the Lead or Sole Investor
Most of the SBCs received financing from multiple investors or lenders
along with the SBIC financing, making it virtually impossible to identify
the specific impact of the SBIC's investment on a company's growth. Only in
the case of the four companies in which the SBICs provided sole financing
could SBIC support be credited with the subsequent growth in employment or
revenues.
SBICs also had an impact on companies' growth by providing financing that
enabled the SBCs to obtain new private financing. For example, a
manufacturer of plastic materials received a $650,000 financing from an
SBIC in 1989, and a local bank conditioned its loan and line of credit of
almost $2 million on the company's receipt of the SBIC's financing. Funding
from the SBIC and the bank, together, enabled the company to expand its
product line and markets so that today the company has 100 employees and
$18 million in revenue, compared to 32 employees and S3 million in 1989.
The SBC reported that although it had initially attempted to obtain
financing from other sources, the SBIC was "the only one that believed in
our business plan."
Similarly, a diamond manufacturing company which          received an SBIC financing
of $1.75 million in 1991 to purchase an existing          diamond plant indicated
that no bank had been willing to make it a loan.          The SBIC's investment
enabled the company to make the acquisition, add          new services and products,
and develop a world -wide market, according to



  25
    Mezzanine financing is provided for major expansion of a company that is experiencing
increased sales volume and is either breaking even or profitable. The financing is used for
plant expansion, marketing, working capital, or development of an improved product.




                                              27
28
the president. By 1993, he said, the company's revenue
had increased from $1 million to $5.2 million, the
number of employees had grown from 7 to 52, and its
after -tax profit was 13 percent. While the president
conceded that the company had been profitable before
the SBIC's financing and would have continued growing
without it, the SBIC's financing "accelerated its rate
of growth."

New Regulations Require SBICs to Report Economic Impact of
Each Financing
Only one of the nine SBICs we reviewed systematically
reports the economic benefits of its financings. In its
1993 Annual Report, for example, the SBIC reported the
number of jobs created and preserved; the capital
expenditures made by its existing portfolio companies;
the aggregate amount paid in Federal, State and local
taxes; and the total size of the companies payroll.
Federal regulations published on April 8, 1994, now
require SBICs to assess and annually report to SBA the
economic impact of each financing. 26 Such reports must
estimate the full -time equivalent jobs created or
retained, the impact of the financing on the business
in terms of expanded revenue and taxes, and other
"appropriate economic benefits," such as technology
development, commercialization, or minority business
development. The regulations require the reports to
accompany each SBIC's annual financial statement (SBA
Form 468).
Depending on the quality of the data, we believe these
reports will be useful for measuring the SBIC program's
effectiveness. To minimize the burden on SBICs and to
assure comparability through standardized reporting, we
suggest that the Agency develop specific guidance on
the type and format of information to be provided.
Further, the Agency should require SBICs to report the
total amount of financing each portfolio company
receives from other sources. Such information is
necessary to gauge more accurately the extent of the
SBICs' impact on the economy.




26
     Federal Register , Vol. 59, No. 68, 107.304(c), April 8, 1994.

                                              29
                          SBICs Failed Primarily Because of a Combination
                         of Unqualified Management and Low Private Capital
Our review confirmed that well -qualified, capable management is crucial to
an SBIC's financial success. According to SBA officials and recent studies
of the SBIC program, many SBICs have failed 27 primarily due to (1)
deficiencies in SBIC managers' qualifications, practices, and integrity and
(2) inadequate private capital to sustain the SBICs. Adverse economic
conditions also appeared to contribute to some SBICs' failure. We reviewed
the files of two SBICs that entered liquidation. The files indicated that
management lacked sufficient lending and venture capital experience, which
resulted in inappropriate investments
given the SBICs' levels of private capital available. In contrast, each of
the successful SBICs we reviewed clearly appear to be run by well    -qualified
managers with good track records.
We recognize that our review of the operations of nine financially
successful and two failed SBICs does not provide a representative profile
of the universe of 280 active SBICs and 199 licensees in liquidation. We
believe, however, that our discussions with SBA officials and other experts
on why SBICs failed, combined with our detailed data   -gathering on the SBICs
that we reviewed, suggest that our results may be illustrative of important
differences between successful and failed SBICs.
Managerial Shortcomings Led to SBICs' Failure
SBA officials and a recent Congressionally -sponsored study 28 on the SBIC
program cited management deficiencies as a primary cause for SBICs'
failure. Such deficiencies included the managers' (1) lack of relevant
experience or education, (2) failure to assure a sound liquidity position
of the SBIC, 29 (3) failure to properly match expected returns with
investments' risk levels, and (4) lack of regulatory compliance and
participation in acts of fraud. SBA officials attributed these problems, in
part, to previously loose standards for licensing SBICs and, in response,
have recently taken steps to strengthen licensing standards. New SBA
guidelines effective May 23, 1994, provide that, among other things,
prospective licensees have (1) a suitable management team relative to the
types of investing being proposed; (2) private capital that is adequate to
operate the SBIC (preferably in excess of the $2.5 million statutory
minimum); (3) a comprehensive, practical business plan; and (4) a financial
forecast that demonstrates understanding of the use of venture capital,
credit, and cash flow management relating to the types of investments being
proposed.




27
  As of May 31, 1994, 199 SBICs were in SBA's Office of Liquidation, having total SBA
leverage outstanding of S531.6 million.
28
     Holloway and Werner, op. cit., p. 65.
29
  A sound liquidity position means that a company has the financial capability to pay off
current liabilities and remain solvent.

                                               30
Managers of Failed SBICs Lacked Relevant Experience. The SBA officials agreed
that, in the past, SBIC managers often did not have sufficient experience
or academic background to operate SBICs effectively. For example, if an
SBIC engaged in equity financings, there was no requirement that the
manager have venture capital experience. Similarly, if the SBIC engaged
in making loans, there was no requirement that the manager have a
background in credit management or loan collection. Furthermore,
according to an SBA official, SBIC
managers often did not limit their investments to those industry areas
for which they had experience or expertise.
For example, the managers of the two SBICs in liquidation   --an SBIC and an
SSBIC that made primarily loans lacked relevant lending experience. The
SSBIC manager's previous work experience consisted of owning and
operating a travel agency and performing consulting services which
primarily involved being a foreign language translator--experiences which
were not relevant to lending or venture capital financing. As a result,
the manager made loans to marginally profitable businesses which could
not sustain periodic payments on the loans. The regular SBIC's manager
also made highly risky investments, primarily in seasonal firms with one
product. The firms were generally start -up companies, which further
increased the investment risk. Both SBICs, according to the receivership
agents, made loans that were inadequately collateralized and failed to
use effective collection and monitoring efforts.
In contrast, the two profitable SBICs in our review that make loans (one
regular SBIC and one SSBIC), have managers with relevant experience. Both
are CPAs with many years of lending experience. Further, the regular SBIC
focuses its investments in industry areas where the manager has
experience and expertise (equipment financings for laundromats and
restaurants). The specialized SBIC has a meticulous loan approval process
where its board of directors acts as a loan committee. Several of the
board members have extensive lending experience--one is president of a
local bank and two others are the current and former chairman of the
bank's Board of Directors.
A possible reason for the lack of qualified management may be the SBICs'
failure to implement compensation plans based, in part, on the SBICs'
profits. The Acting Director of the Office of Liquidation pointed out
that the vast majority of failed SBICs did not have incentive   -based
compensation plans, such as bonuses based on SBIC profits. He believes
that such compensation plans may lead to better management and reduce the
chances of SBIC failure.
Failed SBICs Had Poor Cash Management. According to SBA officials, as well
as several published studies 30 on the SBIC program, SBICs' inadequate cash
management practices contributed to the failure of several licensees. For
example, several studies have noted that




  30
    Financing Entrepreneurial Business: An Agenda for Action   , page v.; General Accounting
Office, op. cit., p.6; Holloway and Werner, op. cit., p. 69.

                                              31
SBICs which made equity investments in small businesses, while paying
fixed semiannual interest payments on SBA debentures, were at greater
risk of financial problems and, ultimately, of liquidation. Equity
investments typically do not yield immediate and constant returns; as a
result, SBICs often could not match the income received on their
investments with the fixed semiannual interest payments to SBA.
Several financially successful SBICs in our study recognize the
vulnerability of their limited private capital and make corresponding
adjustments in their investment strategy. For example, one
equity -oriented SBIC only finances those small businesses which will
generate liquidity within a two-to -four year timeframe; such provisions
enable the SBIC to have cash readily available to meet semiannual
interest payments on SBA leverage and other current liabilities.
Failed SBICs Did Not Properly Match Risk With Rates of Return.In addition,
SBA officials told us that failed licensees often did not set a high
enough rate of return on their investments to justify their risk. The
proceeds were often insufficient to enable the SBICs to pay their
expenses, thus precipitating their collapse. In contrast, one financially
successful, loan -oriented SBIC in our study charges the maximum interest
rate allowable by SBA to help offset its payment on SBA debentures
bearing a 12 percent interest rate. 31
Many Failed SBICs Violated Regulations. In contrast to our observation that
successful SBICs demonstrated regulatory compliance, most failed SBICs
had a poor record of regulatory compliance, according to SBA officials.
These regulatory violations may include fraudulent acts to benefit SBIC
principals.
SBICs Failed Because They Were Not Adequately Capitalized
                                                   32
According to SBA officials and published studies      on the SBIC program,
SBICs with low amounts of private capital have a greater likelihood of
failing. A recent study also confirmed that larger SBICs, in terms of
                                                                                           33
private capital, tended to be financially stronger than smaller SBICs.
Because venture capital investments carry relatively high risk, SBICs
with larger amounts of private capital have a greater chance of overall
success because they usually were able to spread their risks by making
more investments.




31
  Previously, the maximum interest rate an SBIC could charge for loans was the higher of
(1) 15 percent or (2) the current interest rate on SBA debentures plus 7 percent. New
SBIC regulations, issued in April 1994, added a third option to the maximum allowable
interest rate: the weighted average cost of qualifying borrowings (SBA debenture and
other borrowings of the licensee) plus 7 percent.
32
     General Accounting Office, op. cit., p. 2; Werner and Holloway, op. cit., p. 68.
33
     General Accounting Office, op. cit., p. 2.


                                                  32
To compensate for low capitalization, according to a knowledgeable SBA
official, SBICs should make more financings with loans that are
credit -worthy, or spread risk among many relatively small investments. For
example, two successful SBICs we reviewed, one regular SBIC and one
specialized SBIC, have low private capital amounts but make     financings
almost exclusively through loans to generate immediate cash inflows. In
addition, both SBICs perform detailed due diligence to ensure that the
borrowers are credit -worthy, have rigorous loan approval processes, and
conduct thorough monitoring of their loans.

Economic Downturns Have Contributed to SBICs' Failure
Published reports and SBA officials also point to the state of the economy
as contributing to the SBICs' financial failure. A 1992 SBA Investment
Advisory Council report stated that an economic downturn, combined with the
SBICs' general inability to convert their equity investments into cash in
the public securities market for several years, led to higher levels of
SBIC failures.34 An SBA official pointed out that the recent collapse of
the New England real estate market, combined with the high interest rate on
the SBA debentures that the SBICs were paying off, contributed to the
failure of some SBICs in that region.




34
     Investment Advisory Council, op. cit., page v.




                                                  33
APPENDIX A

       PROFILES OF SUCCESSFUL SBICs REVIEWED

[FOIA NAME DELETION]

YEAR LICENSED:                                 1972
PRIVATE CAPITAL:                   $120,008,034
SBA LEVERAGE:                        $19,000,000
ASSET SIZE:                                Large
OWNERSHIP:                       Bank Dominated
INVESTMENTT ORIENTATION:                Balanced
INDUSTRY CONCENTRATION:             Diversified
MAJOR AREAS OF INVESTMENT:        Manufacturing
NUMBER OF CURRENT INVESTMENTS:                   36


[FOIA NAME DELETION]

YEAR LICENSED:                             1961
PRIVATE CAPITAL:                   $14,229,271
SBA LEVERAGE:                      S15,000,000
ASSET SIZE:                               Large
OWNERSHIP:                   Nonbank -Dominated
INVESTMENT ORIENTATION:                Balanced
INDUSTRY CONCENTRATION:           Concentrated
MAJOR AREAS OF INVEST:         Manuf;High Tech
NUMBER OF CURRENT INVESTMENTS:                   23




                                          34
APPENDIX A


[FOIA NAME DELETION]

YEAR LICENSED:                                  1991
PRIVATE CAPITAL:                        $5,658,278
SBA LEVERAGE:                           $6,000,000
ASSET SIZE:                                  Large
OWNERSHIP:                   Nonbank -Dominated
INVESTMENT ORIENTATION:                     Equity
INDUSTRY CONCENTRATION: Neither Diversified
                          Nor Concentrated
MAJOR AREAS OF INVESTMENT:

Manufacturing; High Tech; Services;
Transportation, Communication, and Utilities
NUMBER OF CURRENT Investments:             l5

                 [FOIA NAME DELETION]

YEAR LICENSED                         1977
PRIVATE CAPITAL:               $11,582,791
SBA LEVERAGE:                            $0
ASSET SIZE:                          Large
OWNERSHIP:           Nonbank -Dominated
INVESTMENT ORIENTATION:            Loan
INDUSTRY CONCEN~RATION:   Concentrated
MAJOR AREAS OF INVESTMENT:
             Manufacturing; High Tech
NUMBER OF CURRENT INVESTMENTS:       13




                                                35
APPENDIX A

I



                     [FOIA NAME DELETION]

YEAR LICENSED:                          1960
PRIVATE CAPITAL:                $28,982,360
SBA LE~AGE:                      $4,800,000
ASSET SIZE:                            Large

OWNERSHIP:                 Bank -Dominated

INVESTMENT ORIENTATION:              Equity

INDUSTRY CONCENTRATION:
                               Concentrated

MAJOR AREAS OF INVESTMENT:
           High Tech; Manufacturing;
                             Services

NIJMBER OF CURRENT INVESTMENTS:             49



        [FOIA NAME DELETION]

YEAR LICENSED:                          1984
PRIVATE C APITAL :               $1,035,000
SBA LEVERAGE:                    $1,035,000
ASSET SIZE:                            Small
OWNERSHIP:         Nonbank-Dominated
INVESTMENT ORIENTATION:          Loan

INDUSTRY CONCENTRATION: Neither Diversified
                    Nor Concentrated

MAJOR AREAS OF INVESTMENT: Retail           Trade; Manufacturing


NUMBER OF CURRENT INVESTMENTS:              26




                                                 36
APPENDIX A

[FOIA NAME DELETION]
YEAR LICENSED:                                  1980

PRIVATE CAPITAL:                      $1,500,000

SBA LEVERAGE:                         $1,044,000

ASSET SIZE:                                    Small

OWNERSHIP:                    Nonbank~ -Dominated

INVESTMENT ORIENTATION:                         Loan

INDUSTRY CONCENTRATION:      Neither Diversified
                                Nor Concentrated

MAJOR AREAS OF INVESTMENT:
                       Services; Retail Trade

NUMBER OF CURRENT INVESTMENTS:                    57




[FOIA NAME DELETION]

YEAR LICENSED:                                     1971
PRIVATE CAPITAL:                                   $8,199,819
SBA LEVERAGE: $10,295,000
ASSET SIZE:                                        Large

OWNERSHIP:                                         Nonbank -Dominated

INVESTMENT ORIENTATION :                           Equity

INDUSTRY CONCENTRATION:                            Diversified

MAJOR AREAS OF INVESTMENT:                         Transportation, Communication,
                                                   and Utilities; Services;
                                                   Manufacturing
NUMBER OF CIJRRENT INVESTMENTS:                    20




                                          37
APPENDIX A

[FOIA NAME DELETION]

YEAR LICENSED:                                1979

PRIVATE CAPITAL:                    $19,901,804

SBA LEVERAGE:                                   $0

ASSET SIZE:                                  Large

OWNERSHIP:                       Bank -Dominated

INVESTMENT ORIENTATION:                     Equity

INDUSTRY CONCENTRATION:    Neither Divers ified
                              Nor Concentrated

MAJOR AREAS OF INVESTMENT: Services; High Tech;
                                 Manufacturing

NUMBER OF CURRENT INVESTMLNTS:                  14




                                       38
APPENDIX B

                                 U.S. SMALL BUSINESS ADMINISTRATION
                                        WASHINGTON, D.C. 20416




To:         Tim Cross, Assistant Inspector General
                          for Inspection and Evaluation
From:      Robert D. Stillman, Associate Administrator for Investment
Subject:   IG Inspection of SBIC Best Practices
Date:      August 22, 1994
      You and your team, led by Deborah Eisenberg, have done an excellent piece of work in
examining the best practices of our most successful SBICs. Your well written report is a
splendid summary of the characteristics which we should seek to find in new license
applicants, and try to encourage among our current licensees.
      It is particularly heartening to note the importance of management among the seven
practices common to profitable SBICs. And most gratifying to find that the most successful
managers have prepared themselves by education and experience, have provided a strong
capital base, and conduct their business within the regulations of the program, while
profiting from a compensation based on the success of the enterprise. This is truly a
formula for success of all the parties involved.
      We are pleased to find that the best practices you have identified are also reflected
in the set of characteristics we describe in our attached "Guidelines for Applicants
Applying for an SBIC License", which we send to prospective licensees.   We will also apply
your insights to other aspects of our management of the program.
      As you observe, in promoting the public policy of developing new businesses, we at
SBA sometimes encourage early stage investment strategies which appear to be risky.
However, this is offset by carefully licensing managers with experience and talent in this
type of investment, and by using the new participating security. This instrument allows us
to provide leverage which is appropriately matched to long term equity investments.
      Your report will be very useful in training our staff, and in demonstrating to our
licensees that it is in their interest as well as the government's that they follow the
seven principles you identify, in the management of their businesses.   Thanks for your
thoughtful review.

cc: Erskine B. Bowles
    Cassandra M. Pulley
    James S. Hoobler




                                                  39
APPENDIX C

                          CONTRIBUTORS TO THIS REPORT
Deborah R. Eisenberg, Team Leader
Steve Seifert, Auditor
Chris Chaplain, Inspector
Tim Cross, Assistant Inspector General for Inspection & Evaluation




                                       40
